<html>
<title> - WATCHDOGS NEEDED: TOP GOVERNMENT INVESTIGATOR POSITIONS LEFT UNFILLED FOR YEARS</title>
<body><pre>[Senate Hearing 114-486]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-486

                    WATCHDOGS NEEDED: TOP GOVERNMENT
             INVESTIGATOR POSITIONS LEFT UNFILLED FOR YEARS

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE
95-656 PDF              WASHINGTON : 2016                   
______________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  
     
       
       
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
             Katherine C. Sybenga, Minority Senior Counsel
        Deirdre G. Armstrong, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     4
    Senator Lankford.............................................    21
    Senator Baldwin..............................................    24
    Senator Ernst................................................    25
    Senator Ayotte...............................................    28
Prepared statements:
    Senator Johnson..............................................    37
    Senator Carper...............................................    39

                               WITNESSES
                        Wednesday, June 3, 2015

Hon. Michael E. Horowitz, Chair, Council of the Inspectors 
  General on Integrity and Efficiency, and Inspector General, 
  U.S. Department of Justice.....................................     7
Danielle Brian, Executive Director, Project on Government 
  Oversight......................................................     9
Daniel Z. Epstein, Executive Director, Cause of Action...........    12

                     Alphabetical List of Witnesses

Brian, Danielle:
    Testimony....................................................     9
    Prepared statement with attachment...........................    45
Epstein, Daniel Z.:
    Testimony....................................................    12
    Prepared statement with attachment...........................    61
Horowitz, Hon. Michael E.:
    Testimony....................................................     7
    Prepared statement...........................................    41

                                APPENDIX

Statements submitted for the Record from:
    The Institute of Internal Auditors...........................   107
    U.S. Department of Veterans Affairs Office of Inspector 
      General....................................................   109
Project on Government Oversight Response to Department of 
  Veterans Affairs...............................................   114
Response to post-hearing questions submitted by Mr. Horowitz.....   124

 
                    WATCHDOGS NEEDED: TOP GOVERNMENT
             INVESTIGATOR POSITIONS LEFT UNFILLED FOR YEARS

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Baldwin, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. I ask 
unanimous consent to have my written opening statement entered 
into the record.\1\ No objection. I will do it when his back is 
turned to me. So ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I would like to spend a little bit more time than I 
normally do with some opening comments because this issue is 
pretty dear to my heart and I think all of our hearts. We 
always say the Government Accountability Office (GAO) is our 
favorite agency, but certainly the Offices of Inspectors 
General (OIG) are our favorite offices within these agencies 
and departments, particularly for this oversight Committee. It 
is just incredibly important to have permanent Inspectors 
General (IG) that are completely independent, that will provide 
Congress and the American public transparency, and that 
watchdog assignment, that responsibility for departments and 
agencies so that we have awareness of what is happening. It is 
the only way we are going to be able to improve the efficiency, 
the effectiveness, the accountability of government, is to have 
that type of transparency.
    My own initial involvement with the importance of 
Inspectors General really came after the Cartegena incident. 
Now, I come from the private sector. I have had independent 
financial auditors. I have had surveillance auditors with the 
International Organization for Standardization (ISO) 
certification. These are some independent outside groups that 
provide that independent oversight. This is about as good as we 
can do within government, having, obviously government 
employees, but we need that independence and transparency.
    After the Cartegena hearing where we had the Director of 
the Secret Service, Mark Sullivan, testifying before us, it was 
determined that we would have an inspection, an investigation 
conducted by the Inspector General's office.
    My staff went down in a secure briefing to read the initial 
report. A couple months later, when that report was actually 
issued, we realized that there were parts of the report that 
were originally included in that that had been taken out of the 
report inappropriately, which led to a continuing investigation 
on the part of our Subcommittee to find out that there were 
some other problems with Charles Edwards and we issued a report 
supported by both sides. A couple days before we had a hearing 
with Mr. Charles Edwards, he resigned and went on to some other 
duty.
    The result of the lack of transparency, the lack of what I 
think would be reports with integrity based on what was 
happening within the Secret Service, the cultural problems with 
the Secret Service, the net result of that is we have not 
reformed the Secret Service. We are still continuing to have 
credibility issues within an agency that I think is incredibly 
important to have the utmost credibility. So that is one 
circumstance that was my first time certainly being made aware 
of how incredibly important it is to have a completely 
independent, completely transparent Office of Inspector 
General. And, of course, Charles Edwards, the problem with him 
is he was an Acting IG, and he was openly vying for the 
permanent IG position, so you have a natural conflict of 
interest right there, which I think was at the heart of that 
problem.
    Fast forward. We saw the revelations in Arizona in terms of 
the Department of Veterans Affairs (VA) health care system, 
people dying waiting to be given care. Now, that information 
was broken through news reports, not revealed to the public 
where it should have been revealed through the Office of 
Inspector General of the VA.
    In our own State, Senator Baldwin's State and mine, further 
news reports revealed early this year that there are similar 
problems in the Tomah VA Health Care Center where, because of 
overprescription of opiate drugs, veterans died. And, in 
particular, the day I learned about it, early in January, on 
January 12 Candace Delis took her father, Thomas Baer, into the 
Tomah VA facility. He was a suffering stroke victim. He waited 
somewhere between 2 and 3 hours, probably suffered a couple 
strokes. In the end, he was transported to Gundersen Lutheran 
La Crosse. He died a couple days later. He basically died of 
neglect.
    Now, had the Office of Inspector General been transparent, 
had the office not administratively closed a report that it had 
been working on a couple years, had that report been made 
public, what Candace Delis told me on the phone a few days 
after I learned of the incident, she said, ``Senator, had I 
known that there were problems with the Tomah VA health care 
system, I never would have taken my father to that facility.''
    Now, what is really sad is Candace Delis and Thomas Baer 
lived in Marshfield, Wisconsin. A world-class health care 
facility resides in Marshfield, Wisconsin. Thomas Baer would 
have been alive had we had the type of transparency, the type 
of independence in the Office of Inspector General within the 
VA system. I truly believe that.
    So these issues are not just theoretical. This is not just 
about, good government. People's lives can be in the balance 
here. So these are incredibly important issues.
    The purpose of this hearing is really to, I think, first 
convey how important that independent and transparent function 
is of the Office of Inspector General; and then, second, to 
find out why this White House, this Administration, who claimed 
to be and wanted to be the most transparent Administration in 
history, has taken so long to fill so many positions of 
Inspectors General. Here are just a couple of examples.
    The State Department went 1,701 days without a permanent 
Inspector General. That is more than 4\1/2\ years before that 
position was finally filled.
    The Interior Department is right now holding the current 
record: 2,291 days, 6\1/4\ years since we have had a permanent 
Inspector General within the Department of Interior (DOI).
    The Department of Labor (DOL) was pretty bad. Labor had 
1,555 days that position went vacant. That is more than 4\1/4\ 
years.
    Now, let us just compare past Administrations.
    The Reagan Administration, the average days of vacancy was 
about 224 days.
    Under the first President Bush, it was about 337 days.
    Under Bill Clinton, 453 days average vacancy.
    Under the second President Bush, 280 days.
    Under President Obama, the average vacancy has been 613 
days, 1\2/3\ years these positions have gone vacant, have not 
been filled. That is a problem.
    Now, again, we have a good panel here to describe and 
fulfill the first purpose of this hearing, which is describe 
how important it is for the Office of Inspector General to be 
independent and transparent.
    Unfortunately, we do not have the White House's version of 
events, and let me just read a timeline in terms of our attempt 
to get the White House to give this Committee the information.
    On May 14, we first reached out to the White House about 
this hearing and invited Valerie Green, who is the Director of 
the Office of Presidential Personnel. That would be the person 
within the White House that could give us that answer: Why have 
these positions gone unfilled for so long?
    On May 19, we began discussions with the White House 
Counsel's Office after the White House said it would not send 
Ms. Green.
    On May 22, we formally invited Ms. Green and offered the 
White House to send a designee from her office if it could not 
send Ms. Green.
    On May 27, the White House rejected the invitation and said 
it would only send Beth Cobert, whom we all like--I have a 
great deal of respect for Beth Cobert. We all do here on the 
Committee. But she is Deputy Director for Management at the 
Office of Management and Budget (OMB). She is not involved in 
these decisions in terms of these nominations. She is not in 
that Office of Presidential Personnel. She obviously has some 
tie-in with the Council of Inspectors General on Integrity and 
Efficiency (CIGIE), but she would not be in the position to 
answer the questions that this Committee is trying to 
ascertain.
    On May 28, we again reiterated to the White House that Ms. 
Cobert is not an appropriate witness because she plays no part 
in the White House's nomination process. We also highlighted a 
2012 House hearing in which an OMB witness testified on this 
matter, and they could not answer the members' questions about 
the nomination process because they ``have no role in that.''
    On May 28, we invited the former director of the office, 
Jonathan McBride, who is now working in the private sector at 
BlackRock. The White House told BlackRock and Mr. McBride that 
it does not want Mr. McBride to testify and asked him not to 
speak with us.
    On June 4, the Committee offered to accept a non-public 
briefing with the Office of Presidential Personnel in lieu of 
testimony today. Yesterday, Mr. McBride refused to testify and 
directed the Committee to speak to the White House. Also 
yesterday, the White House said it would not provide Members 
with a briefing, is not sending Ms. Green or anyone else from 
that office, and is refusing to allow the former director of 
that office to testify.
    This is very disappointing to this Committee. I think this 
is our responsibility to conduct this oversight, and we are not 
going to get the information from the White House, which is the 
second purpose of this hearing. So I think it is unfortunate, 
but I wanted to put that on the record.
    With that, I will turn it over to our Ranking Member, 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning, everyone. Thank you for 
joining us today. We look forward to this important hearing.
    I take second place to no one with an appreciation for the 
important role that Inspectors General play in our government. 
In order for us to be effective in ferreting out waste and 
fraud in the Federal Government--there is still too much of 
it--this Committee needs to partner with our colleagues in the 
Senate, we need to partner with the Administration, the 
Executive Branch, we need to partner with GAO, we need to 
partner with the Inspectors General, we need to partner with 
all kinds of entities, nonprofit entities that are outside of 
the Federal Government, in order to find out how do we get 
better results for less money.
    Last Congress, if I am not mistaken, I sent a letter, along 
with Senator Tom Coburn, who was then our Ranking Member, to 
the Administration saying there are too many vacant positions, 
vacant for too long, of Inspectors General throughout our 
government, do something about it.
    I led a second effort, joined in this case by our Chairman, 
and joined I think by everybody on this Committee, as was the 
case 2 or 3 years ago, writing to the same President with the 
same message: There are too many vacancies for too long a 
period of time for Inspectors General, do something about it.
    Well, I think in this case we have actually done something 
about it. Am I happy, am I satisfied with the progress that has 
been made? Not entirely. But let us keep this in mind: There 
are 72 Inspector General positions throughout our government, 
33 of them require confirmation. There are today, I believe, 
seven vacancies in these Senate-confirmed positions. The 
Administration has put forth nominees for three of these seven 
positions, which means there are still four for which we need 
nominees. And my own view is that the way to get stuff done is 
not just to send letters to the President, to make phone calls 
not just to the President, but the Chief of Staff, the other 
folks who are advising the President, and to be unrelenting in 
doing this.
    The other thing, we have an obligation ourselves--we are 
not entirely pure as a Committee. We have seen situations where 
Members of this Committee literally have held up nominations 
for Inspectors General, not just for weeks, not just for 
months, but for even longer periods of time. So this is the pot 
to some extent calling the kettle black. But this 
Administration needs to do a better job. I believe that and I 
am sure every Member of this Committee believes that.
    The idea of having a vacancy for the IG at the Department 
of Veterans Affairs for a year and a half, unacceptable. The 
idea of having a vacancy for the IG at the Department of the 
Interior for over 5 years, really unacceptable. And I am a 
thorn in the side of my friends in this Administration in 
making sure that we address these vacancies, and I am confident 
that we will, because I am not quitting. And I know the rest of 
you will not either.
    Let me just say this: Some of my colleagues know this is a 
shared responsibility, and our responsibilities include not 
just hounding the Administration to get us good folks, nominees 
for these positions, but when they do, for us to expedite 
processing the nominations. I have seen situations where we 
held up the thing for so long that somebody nominated for an IG 
position, I think living in California, they had looked and 
seen how long the process took to get the previous nominee who 
finally withdrew, and that nominee in California said, ``I am 
not going to move my family to Washington, D.C., uproot my 
family and go through that kind of vetting process to see if I 
am going to get confirmed.'' And they just backed out. So there 
is a shared responsibility here.
    A guy named Richard Skinner was the first Senate-confirmed 
Inspector General of the Department of Homeland Security (DHS). 
He explained the special authority that comes with Senate 
confirmation at a hearing that we held in this Committee about 
2 years ago. This is what he said, and this is a quote:
    ``With having acting people in place, what you are doing is 
running in place. . . . [Y]ou are not taking those risks 
necessary as a confirmed IG would to provide oversight . . . 
that is absolutely critical to the success of any program.''
    I think that is a powerful statement of how Senate 
confirmation enhances independence.
    We look forward to hearing from our witnesses today as we 
work together to find ways to not just reduce the number of 
vacancies in these key positions, but also to ensure they are 
filled with highly qualified candidates who will help us root 
out problems and save money for our taxpayers.
    Now, on the issue of asking the advisers to the President 
to come and testify before Senate committees, this is not a new 
subject. I came here, elected at the same time that George W. 
Bush was elected President, and a number of times in his 
Administration, we sought to compel the President's advisers to 
come and testify before Congressional committees. They chose 
not to do that. And the reason why, one of the reasons why is 
the view that if someone is an adviser--I am not talking about 
a Cabinet Secretary or a confirmed position, but somebody who 
is an adviser to the President, Presidents want that person to 
give their honest, unvarnished advice. This is what we heard 
before, from the previous Administration, and we heard from 
this one as well. If the person is expected to give the 
President advice on a particular issue and is going to be 
compelled to come here and testify, will that person be as 
inclined to give actually the frank, honest advice that a 
President needs? And the last Administration said, ``We do not 
think so,'' and frankly, neither does this one.
    Now, who did the President offer to send, who did the 
Administration offer to send? As the Chairman has said, the 
person he offered to send was Beth Cobert, whom we know and 
respect a great deal. She is one of the top people at OMB. And 
the reason why they offered to send her is that she serves as 
Executive Chair of the Council of Inspectors General on 
Integrity and Efficiency. And not only that, she is somebody 
the President listens to, and she talks to him on a fairly 
regular basis. And she, as much as anybody, can deliver the 
message directly to him, directly to the President's top aides, 
his Chief of Staff and other people, on a consistent basis, and 
say, ``These vacancies have been in existence for too long. We 
need to do something about it.'' That is why she would have 
been a good witness.
    So on that happy note, I am happy we are all here. 
Everybody agrees we need IGs, we need good ones, and we need 
them to be going to work today and every day. And let us just 
make sure that we all pull together in the same direction, and 
we will get that done.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I do want to point out that I have certainly made a 
commitment to move nominations for this Administration as 
quickly as possible. I have already got a record with Russ 
Deyo. I worked pretty long and hard working the phones and 
working my colleagues to make sure we could release those 
holds. And we do have one nomination for an IG before this 
Committee, Carol Ochoa for the General Services Administration 
(GSA) IG position. She was nominated on March 11. This 
Committee received her required documents on May 11. We 
conducted a staff interview on May 20th----
    Senator Carper. Mr. Chairman, can I interrupt for just a 
second?
    Chairman Johnson. Sure.
    Senator Carper. Finance has a markup right now. They are 
working on one of my bills that I have been working on. I need 
to run out for a quorum. I will be right back.
    Chairman Johnson. Dismissed.
    Senator Carper. I apologize.
    Chairman Johnson. But, again, we have been trying to work 
through this nomination as quickly as possible. Again, we 
received her required documentation May 11. We did the staff 
interview on May 20. We have scheduled her confirmation hearing 
for June 17, and we will do everything possible to get her 
confirmed as quickly as possible. So we certainly have that 
commitment.
    Again, I want to welcome the witnesses. Thank you for your 
thoughtful testimony. I have read it, and I am looking forward 
to your testimony and answers to our questions. It is the 
tradition of this Committee to swear in witnesses, so if you 
will all rise and raise your right hand. Do you swear the 
testimony you will give before this Committee will be the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Mr. Horowitz. I do.
    Ms. Brian. I do.
    Mr. Epstein. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Michael Horowitz. Inspector General 
Horowitz is the Inspector General for the Department of Justice 
(DOJ) and chairs the Council of Inspectors General on Integrity 
and Efficiency. We refer to it as ``CIGIE'' because that is a 
lot easier to say. Prior to joining the Inspector General's 
Office, Mr. Horowitz had a decorated career as a Federal 
prosecutor in the Criminal Division of the Department of 
Justice. Mr. Horowitz.

   TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ,\1\ CHAIR, 
COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY AND EFFICIENCY, 
       AND INSPECTOR GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Carper, and Members of the Committee. Thank you for inviting me 
to testify today. This Committee has consistently provided 
strong bipartisan support for the work of Inspectors General, 
and I want to thank you for that support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    In January, I was sworn in as the Chair of the Council of 
the Inspectors General, and one of our most important missions 
there is to provide, as the IG Act indicates and requires us to 
do, to recommend individuals for appointment as Inspectors 
General. And since the creation of the Council of Inspectors 
General in 2009, we have recommended over 100 individuals for 
Inspector General positions, and many of the candidates are now 
serving as Inspectors General. Indeed, I am one of those 
candidates that was recommended by the Council.
    To fulfill their responsibility, Inspectors General must be 
scrupulously independent, thorough, impartial, fair, and 
accountable to the public. Being able to make difficult and 
unpopular findings is part of the job description. Finding IG 
candidates who can fulfill all of these objectives can be a 
challenge, but it is critical to the IG selection process.
    In seeking to fulfill our responsibility to find candidates 
to recommend for IG vacancies, the Council of IGs has 
established an Inspector General Recommendation Panel. We seek 
to recruit candidates from both inside and outside the 
Inspector General community to apply for IG vacancies. Once 
received, applicants are referred to the panel for review. The 
panel looks for certain core qualifications of applicants. And 
since the type of experience that is needed can cut across 
industries and sectors, the panel considers applicants from 
various professional backgrounds, including from the IG 
community, Federal, State, and local government agencies, and 
the private sector. After review, the panel determines which 
applicants to recommend for consideration.
    The Council of IGs, however, is not the only source of IG 
candidates. For example, interested individuals can contact the 
appointing authorities directly. Moreover, the appointing 
authorities are not required to accept or even act on the 
recommendations that we send them.
    Far too often, the process for selection and appointment of 
IG candidates takes too long. As of today, there are eight IG 
positions that remain vacant. As of the end of this month, all 
of these positions, with the exception of the Central 
Intelligence Agency (CIA) Inspector General position, will have 
been vacant for over one year.
    At present, there are nominees pending for three of the 
positions: the U.S. Agency for International Development 
(USAID), the Federal Deposit Insurance Corporation (FDIC), and 
the GSA. I am very familiar with two of those nominees for FDIC 
IG and GSA IG because both of them currently work with me in 
the Department of Justice Office of the Inspector General. 
Their dedication and experience will make them outstanding 
Inspectors General, and I am hopeful they will join the 
Inspector General community shortly.
    On behalf of the Council of IGs, I would encourage swift 
action with respect to selecting IG candidates for the 
remaining IG positions and confirming them promptly so that we 
can have all of the positions filled.
    As this Committee has recognized previously, during the 
period of an IG vacancy, Acting Inspectors General and career 
staff can carry on the work of their offices, and they do it 
with the utmost of professionalism. Indeed, my office had an 
Acting Inspector General for 15 months prior to my 
confirmation, and she served with great distinction. However, a 
sustained absence of permanent leadership is not healthy for 
any office, particularly one entrusted with the important and 
challenging mission of an OIG. Moreover, no matter how able or 
experienced an Acting Inspector General may be, a permanent IG 
has the ability to exercise more authority in setting policies 
and procedures and, by virtue of the authority provided for in 
the IG Act, inevitably will be seen as having greater 
independence. As such, a timely process for addressing vacant 
IG positions is crucial.
    I can speak from my personal experience about the extended 
period of time it can take to identify and confirm an IG 
candidate. My predecessor, Glenn Fine, announced in November 
2010 that he would be leaving the position in January 2011. I 
was not nominated until July 31, 2011, and I was not confirmed 
until March 29, 2012. It was approximately one year from the 
time that I was contacted about the Inspector General position 
until the time that I was actually confirmed. I am particularly 
concerned, as the Chairman just mentioned a similar concern, 
that such a lengthy process could discourage strong candidates 
from seeking IG positions.
    The Council of IGs will continue to encourage talented 
senior staff in the IG community to apply for vacant IG 
positions and to expand our recruitment efforts to find 
qualified candidates from outside the IG community. In 
addition, we will continue to seek to engage with the Office of 
Presidential Personnel to try to push for the prompt selection 
to fill establishment IG vacancies. And we will work with the 
leaders of the designated Federal entities that have IG 
positions to encourage them to seek input from the Council of 
IGs when an IG vacancy occurs. We will also continue to work 
with the Committee and its staff on these issues.
    The Council of IGs is committed to reviewing its practices 
and improving our contributions to the process to ensure that 
IG vacancies are promptly filled with outstanding candidates.
    Thank you, and I would be pleased to answer any questions 
the Committee may have.
    Chairman Johnson. Thank you, Mr. Horowitz.
    Our next witness is Danielle Brian. Ms. Brian has been the 
Executive Director of the Project on Government Oversight 
(POGO), since 1993, leading the project to investigate fraud, 
waste, and abuse in the Federal Government and achieving a more 
accountable and ethical government. Ms. Brian.

TESTIMONY OF DANIELLE BRIAN,\1\ EXECUTIVE DIRECTOR, PROJECT ON 
                      GOVERNMENT OVERSIGHT

    Ms. Brian. Thank you so much, Chairman Johnson--I am sorry 
Ranking Member Carper is not here at the moment--and Members of 
the Committee. Thank you for inviting me to testify today and 
for this Committee's longstanding and ongoing oversight of the 
IG system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brian appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    POGO has worked for years to study and improve the IG 
system. We are seeing in the news this week additional examples 
of why good oversight by IGs is important. For example, it was 
the DHS IG that is now a permanent IG who ran the security 
tests bringing banned items into airports and found the 
Transportation Security Administration (TSA) failed 67 out of 
70 tests, or 95 percent. This resulted in immediate reforms, 
including the reassignment of the TSA's Acting Administrator.
    Unfortunately, not all IG shops are doing such important 
work. Among the most pervasive threats to IG independence and 
effectiveness are the longstanding vacancies that have 
languished at IG offices throughout the Federal Government. 
Generally speaking, Acting IGs have several disadvantages over 
their permanent counterparts. As Mr. Horowitz was highlighting, 
one is that Acting IGs do not enjoy the same level of 
credibility because they have not gone through the vetting 
process. Two, Acting IGs are temporary by nature and have an 
incentive to curry favor with the agency head as a way of 
auditioning for the permanent appointment. And, three, Acting 
IGs are loath to address the most important and, at times, 
embarrassing problems that confront them. As a result, they 
become more lapdog than watchdog for the agency.
    Several years ago, POGO created a special Web page--Where 
Are All the Watchdogs?--to keep track of ongoing vacancies in 
the IG system. IG vacancies under President Obama have lasted 
an average of 613 days, as the Chairman mentioned, nearly 2 
years. The vast majority of that time has been spent waiting 
for the selection of a nominee by the President.
    IG positions can become vacant for a variety of reasons and 
in some instances might even be beneficial. For instance, POGO 
and other groups called on President Obama to remove Senate-
confirmed Commerce IG Todd Zinser after a House probe found 
that Zinser and his deputies retaliated against whistleblowers 
and that he had hidden a previous case of whistleblower 
retaliation during his confirmation process.
    Whatever the reasons may be for a vacancy to begin or 
continue, the following examples show what can happen when an 
IG office languishes for too long under acting leadership. One 
OIG staffer told POGO, ``The situation is akin to a plant that 
is left unwatered for years.''
    The Department of Veterans Affairs has now gone, as was 
mentioned, a year and a half without a permanent IG, and 
President Obama still has not offered a nominee. If there were 
a Federal agency more in crisis in my years of working in 
Washington than the VA, I cannot think of one.
    In the meantime, the IG's office has been led in an acting 
capacity by Richard Griffin. Griffin's independence and 
interactions with Department leaders have repeatedly come under 
scrutiny during his tenure as Acting IG, including POGO's own 
run-ins with that office.
    Last year, after Griffin conferred with one of the VA's top 
officials, the IG's office added language to a draft report 
that undermined a whistleblower's claims about veterans' deaths 
and falsified wait lists, according to an e-mail released by 
the House Veterans' Affairs Committee.
    In addition, Chairman Johnson, you and other Members of 
this Committee have rightfully raised your own concerns about 
the independence of the VA IG's office and the need for 
permanent leadership. Incredibly, that office continues to 
defend its decision to withhold its findings from the public, 
stating that its reports were ``technically available if the 
public or Members of Congress submitted a Freedom of 
Information Act (FOIA) request.'' This posture--which is, 
unfortunately, all too common among both acting and permanent 
IGs--creates the strong appearance that the VA's watchdog is 
shielding the Department from Congressional and public 
scrutiny.
    At the Department of Homeland Security IG's office, the 
tenure of Charles Edwards as Acting IG serves as a shining 
example of all that can go wrong when IG offices are headed for 
too long a time under acting leadership, as the Chairman 
mentioned.
    My written statement includes additional case studies of 
longstanding vacancies that threaten the independence of IG 
offices. At the Department of Defense, for example, the impact 
of then-Acting IG Lynne Halbrooks' efforts to shield her agency 
from bad press are still being felt. Just yesterday, McClatchy 
papers reported that a Federal judge is investigating 
allegations that the Pentagon IG's office under Halbrooks' 
watch may have improperly destroyed exculpatory documents 
during a leak investigation of the National Security Agency 
(NSA) whistleblower Thomas Drake.
    At the State Department, there was no permanent IG for the 
duration of Secretary Clinton's tenure. This raises the obvious 
question as to whether someone at the agency would have blown 
the whistle on the Secretary's refusal to use government e-
mails had there been a real watchdog in place.
    In the early days of the Obama Administration, I was able 
to speak with senior officials in the White House to propose 
potential IG nominees. The last time I reached out on that 
subject, it appeared I was dealing with White House interns. My 
personal experience seems to reflect this Administration's 
growing ambivalence toward IGs in general. We are pleased to 
see that the number of vacancies at Federal IG offices has 
dropped in recent years, but seven vacancies for Presidentially 
appointed IG positions is still too many, especially when two 
of those vacancies have languished for more than 1,000 days.
    In addition to filling the vacancies with strong permanent 
IGs, POGO has issued other recommendations to ensure that both 
acting and permanent IG watchdogs do not become subservient 
lapdogs. One of our biggest concerns is that the IG Act induces 
many OIGs to spend a significant amount of time chasing what we 
called ``small-window projects'' in order to boost their 
offices' metrics in semiannual reports to Congress. POGO has 
started to explore how to revamp these ineffectual reporting 
requirements so that IG reports are more meaningful and 
reflective of the information that Congress and agencies 
actually need.
    I would also quickly warn you about the current move to 
shift the responsibility of overseeing Afghanistan 
reconstruction spending from Special Inspector General for 
Afghanistan Reconstruction (SIGAR) John Sopko over to the 
Department of Defense (DOD) IG. Remember the problems you have 
been having with the VA IG requiring the public and Congress to 
file a FOIA request to get reports? The DOD IG is far worse. 
They mark their reports ``For Official Use Only'' as a matter 
of course. If you want to learn how you are spending money in 
Afghanistan, I would strongly encourage you to keep the SIGAR 
shop open.
    Thank you very much for inviting me to testify today. We 
look forward to working with the Committee to strengthen IG 
independence and to ensure that these essential offices 
function as aggressive watchdogs.
    Chairman Johnson. Thank you, Ms. Brian.
    Our next witness is Daniel Epstein. Mr. Epstein is the 
Executive Director of Cause of Action, a government oversight 
group that works to root out waste and fraud in Federal 
agencies, including working to increase transparency and 
accountability. Mr. Epstein.

TESTIMONY OF DANIEL Z. EPSTEIN,\1\ EXECUTIVE DIRECTOR, CAUSE OF 
                             ACTION

    Mr. Epstein. Good morning, Chairman Johnson and Members of 
the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Epstein appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    Since its founding, Cause of Action has worked productively 
with IGs by sharing research that enhances their investigative 
efforts.
    In April 2012, agents from the Department of Energy (DOE) 
Inspector General Office informed my organization that they 
opened up an investigation into the misuse of funds by the 
International Humanities Center.
    In May 2014, the U.S. Department of Housing and Urban 
Development (HUD) OIG confirmed that an investigation was 
opened into whether HUD violated appropriations laws in 
promoting the Affordable Care Act.
    Most recently, the Health and Human Services (HHS) Office 
of Inspector General began an ``open and ongoing 
investigation'' into issues concerning lobbying with the 
Affordable Care Act funds.
    Sitting in Washington, the President's decision not to fill 
certain IG vacancies may seem political. Consider the following 
agency issues during the current Administration that might have 
been embarrassing to the President.
    Earlier this year, it was revealed that former Secretary of 
State Hillary Clinton used a private e-mail server to conduct 
agency business.
    Last month, an audit revealed that civilian and military 
officials used Defense Department credit cards for gambling and 
escort services in Las Vegas and Atlantic City.
    The General Services Administration had its own scandal 
centered in Las Vegas.
    In 2013, this Committee investigated Acting DHS IG Charles 
Edwards, and the Department of Transportation (DOT) Inspector 
General at the direction of CIGIE later found him to have 
engaged in misconduct.
    The Department of Veterans Affairs has been plagued by 
scandal regarding medical care of veterans. The former Acting 
USAID IG removed findings from reports sent to this Committee.
    Fannie Mae, overseen by the Federal Housing Finance Agency, 
suffered from financial conflicts of interest amongst its 
executives.
    The Federal Deposit Insurance Corporate is currently in the 
crosshairs of Congress for a controversial program known as 
``Operation Choke Point.'' And the Department of Labor was 
found by this Committee to have engaged in massive amounts of 
wasteful spending.
    The President did not submit nominations to the Senate for 
permanent IGs at any of these agencies--GSA, USAID, FDIC, FHFA, 
DHS, Defense, State, and Labor--until after he was elected to 
his second term. The President has still not nominated a 
permanent IG for Veterans Affairs or the Interior Department.
    Permanent IGs might have solved some or all of the 
systematic agency problems that led to these scandals, but 
investigating, publicizing, and remediating waste, fraud, and 
abuse by Federal agencies empowers Congress and the public and 
forces the President to engage in uncomfortable decisions when 
an OIG uncovers misconduct amongst Presidential appointees; 
that is, the President is ultimately accountable for removing 
his appointees.
    This point can be further illustrated by highlighting an 
investigation conducted by this Committee. In 2013, HSGAC's 
Subcommittee on Financial and Contracting Oversight conducted 
an investigation into then-Acting IG Charles Edwards. Mr. 
Edwards resigned just days before he was to testify before this 
Committee. However, the resignation from the IG's office did 
not mean his separation from government employment. After 
taking administrative leave and resigning from the OIG, Charles 
Edwards was granted a transfer to DHS' Office of Science and 
Technology Directorate. However, the IG Act states that when an 
Inspector General is removed from office or is transferred to 
another position or location within an establishment, the 
President shall communicate in writing the reasons for any such 
removal or transfer to both Houses of Congress not later than 
30 days before the removal or transfer.
    The legislative history behind the 2008 IG Act amendments, 
which this Committee provided, says that the President is 
required to notify Congress for any removal or transfer to 
ensure that the IG was not removed or transferred for political 
reasons. It has never been made public whether the President 
ever communicated the reasons for Mr. Edwards' transfer, but it 
is reasonable to infer no such communication by the President 
occurred.
    To be charitable, while it could be the case that the 
President may have ignored the statutory requirement to inform 
Congress before an IG was transferred, the President likely 
obtained legal advice that an Acting IG is not covered by this 
statutory requirement. But the fact that the President may have 
received such legal advice is precisely why the Inspector 
General vacancies should not remain unfilled, because it 
delegates too much discretion to the Executive to determine the 
scope of Acting IG authority.
    The problems associated with Acting IGs extends to the 
recent revelations at the State Department that former 
Secretary of State Hillary Clinton exclusively used a private 
e-mail system for official government business. During Mrs. 
Clinton's entire tenure, the State Department Acting IG was 
Harold Geisel, an ambassador under former President Bill 
Clinton. As a career member of the Foreign Service, Mr. Geisel 
was prohibited by statute from becoming a permanent IG. In 
testimony before the House Committee on Foreign Affairs, the 
GAO criticized the appointment of Acting IGs at the State 
Department from career Foreign Service officers because of 
their inherent lack of independence and noted in particular 
that Mr. Geisel had 25 years in senior State Department 
positions.
    During Mrs. Clinton's tenure, the White House never made 
any attempt to appoint a permanent IG, and Mr. Geisel served as 
the Acting IG for 5 years. In 2013, both the Chairman and 
Ranking Member of the House Committee on Foreign Affairs signed 
a joint letter sent to newly appointed Secretary of State John 
Kerry as well as another letter to President Obama, noting that 
the ``gap of more than 1,840 days is the longest vacancy of any 
of the 73 Inspector General positions across the Federal 
Government.''
    As part of my written testimony submitted to this 
Committee, my organization is releasing previously undisclosed 
records we obtained through FOIA requests submitted to the 
State Department OIG and the National Archives and Records 
Administration (NARA) for information pertaining to Secretary 
Clinton's e-mails. The OIG claimed that there were no 
responsive documents from Mr. Geisel's time. NARA, however, 
confirmed that responsive OIG records existed, though it 
claimed exemptions over such documents.
    Other records produced by NARA show that as early as 2012, 
NARA officials were concerned that Mrs. Clinton might alienate 
Federal records from government control. Despite this (and the 
obligation imposed on NARA by the Federal Records Act), there 
is no indication that NARA ever notified the Department of 
Justice or Congress about the possible alienation or 
destruction of Federal records or sought to use the law 
enforcement powers to retrieve Secretary Clinton's records. To 
the contrary, NARA publicly commended the State Department for 
its record management practices.
    Given NARA's 2012 concerns and its opportunities to cure 
Hillary Clinton's alienation of records, it either was aware of 
the State Department's intentional failure to preserve Mrs. 
Clinton's e-mails or was extremely negligent in its efforts to 
monitor senior officials' e-mails. It is an unfortunate 
coincidence that Hillary Clinton's e-mail abuses occurred when 
the State Department and the National Archives both lacked 
permanent IGs.
    Many of the scandals I have discussed would have been 
foreseeably avoided or timely remedied had these agencies had 
permanent independent IGs. Unlike other Federal officials 
appointed by the President, IGs partner with Congressional 
oversight committees and public interest organizations in order 
to oversee their resident Federal agencies. This creates unique 
incentives for IGs to be politically accountable to Congress in 
ways that other Presidential appointees may not be, which 
serves a democratic purpose rendered impossible when no Senate 
confirmation takes place or when the Acting IG's legitimacy is 
challenged, as is often the case.
    I thank the Committee for the opportunity to testify on 
these important issues.
    Chairman Johnson. Thank you, Mr. Epstein.
    I would like to start with you, as long as you raised the 
issue about the FOIA request through NARA and the Office of 
Inspector General for the State Department. You say that with 
your FOIA request you found out that NARA said there were 
responsive documents that were not supplied by the State 
Department to your FOIA request?
    Mr. Epstein. Yes, that is correct. Actually, it is one of 
the exhibits that I submitted with the written testimony. We 
actually FOIA'd for very similar things to the State Department 
OIG and to NARA, which was quite simply we wanted any records 
and communications about their investigations into Hillary 
Clinton's e-mail use. The time period was from January 2009 to 
the present. The current OIG responded that there were no 
responsive records. We have a document from NARA that says 
there is a communication with the State Department OIG, but 
they withheld it under an exemption known as B-5, which is 
deliberative process.
    Chairman Johnson. So you know there were responsive 
documents, but you have not gotten those responsive documents.
    Mr. Epstein. Yes, the likelihood is--we have filed an 
appeal. We would likely have to litigate that question, and I 
can tell you from the perspective of good government groups, 
litigation usually does not prove fruitful for getting 
transparency. It is a last resort type of thing.
    Chairman Johnson. OK. Well, again, thank you for your work 
on that, and this Committee will certainly followup on that.
    Mr. Horowitz, CIGIE has since 2009 recommended about 114 
potential IGs for those vacancies, correct?
    Mr. Horowitz. That is correct.
    Chairman Johnson. Do you know what happens to those?
    Mr. Horowitz. Once we make a recommendation, we do not know 
what the process is thereafter.
    Chairman Johnson. Do you know how many of those 114 
potential nominees have actually been selected by the 
Administration and appointed?
    Mr. Horowitz. As I sit here, I do not know the number off 
the top of my head.
    Chairman Johnson. But the bottom line is that certainly 
CIGIE believes there are a lot of potentially qualified 
Inspectors General for this Administration to appoint.
    Mr. Horowitz. Right, that is correct. And it has certainly 
been far less than 100 that have been selected, so there are 
still many candidates available.
    Chairman Johnson. Now, I believe the maximum number of days 
that somebody can serve as an Acting IG is 210 days, correct?
    Mr. Horowitz. That is my understanding.
    Chairman Johnson. How many Acting IGs right now have 
exceeded that?
    Mr. Horowitz. Well, as I mentioned, seven of the eight 
vacancies exceed one year--or will exceed one year. That is 
certainly more than 210 days.
    Chairman Johnson. So how does the Administration get around 
that statutory requirement?
    Mr. Horowitz. Well, what has happened is the Acting IGs, 
which are often the Deputy Inspectors General, simply fall back 
to be the Deputy Inspector General, and there is no Acting and 
there is no confirmed IG.
    Chairman Johnson. So it is really form over substance. They 
all of a sudden change your title from Acting IG and they 
become a Deputy IG again, and they serve as an Acting IG.
    Mr. Horowitz. Someone needs to make some decisions within 
the office, so that is what ends up happening.
    Chairman Johnson. That is certainly one of the areas that 
we need to find some reform on. There has to be some 
enforcement mechanism for that statutory requirement. Is that 
basically your understanding?
    Mr. Horowitz. Somebody needs to make some decisions with 
regard to that. Certainly the best way to do it is to get 
nominees pending and confirmed.
    Chairman Johnson. OK. I have a lot of questions. Hopefully 
we will have time for a second round.
    Senator Carper. You are the Chairman.
    Chairman Johnson. I know. [Laughter.]
    We have a lot of people--I am in charge.
    Ms. Brian, in being briefed for this hearing, I did find 
out something rather disturbing, that the office of POGO had 
been ransacked, broken into is probably the best--can you 
describe what happened there?
    Ms. Brian. Yes, sir. It was a few months ago when staff 
came to POGO for work that morning and found that one of the 
filing cabinets had clearly been tried to be jimmied open, and 
at that time we had not had quite the physical security that we 
now have established in our offices. We called the police for 
them to investigate, and we are in sort of a typical Washington 
office building where we are not the only office in that 
building, and none of the other offices in that building had 
been burgled, nor had there been anything else in town, 
according to the police, in that particular area. And so the 
police concluded that it was because of the kind of work that 
we do, that it was an information gathering--there were also 
some desks that clearly materials had been moved around on the 
desks. So it was clearly someone who was trying to find 
something that was in our office.
    Chairman Johnson. Was there any information missing that 
you are aware of?
    Ms. Brian. It is one of those things what we do not know. 
So it was not clear to us what was taken, if anything, or if it 
was just photographs that were taken, for example, of our 
desks. We were able to establish that our servers had not been 
violated, but certainly because of that we have significantly 
ramped up physical security and cybersecurity for our office.
    Chairman Johnson. In your testimony you talked about Acting 
IGs auditioning for the permanent IG slot. That is certainly 
what we saw as a real problem with Charles Edwards. Can you 
just describe what happens there, the type of department or 
agency capture of that Acting IG and how damaging that is to 
independence and transparency?
    Ms. Brian. Yes, well, I certainly have been actually 
lobbied by Acting IGs specifically asking for our support in 
their efforts to become permanent IGs, so I have witnessed it 
firsthand. And what happened, of course, because IGs are dual-
hatted, they both report to the Congress but also to the head 
of an agency. And because the head of any IG's agency has 
significant say in who is the appointee to be the IG, what we 
see is that those Acting IGs over and over again try to curry 
favor with the head of that agency in order to get that 
appointment. And what that means is making sure that they are 
not only not doing hard-hitting, independent work while they 
are in charge of the Inspector General's office, but often we 
are also finding that they are deliberately trying to cover up 
bad news that should be revealed, as you mentioned you saw with 
the VA IG.
    Chairman Johnson. So, in other words, they may decide not 
to pursue a particular investigation; they may in a report 
doctor or certainly not have as hard-hitting a report, maybe 
remove things at the request of the different agencies, which 
is what we saw with Charles Edwards. Is that the type of 
specific activity you are talking about?
    Ms. Brian. Oh, yes. I can give you another specific example 
with the Department of Defense IG where there was actually 
quite an extraordinary investigation where at the time CIA 
Director Leon Panetta had improperly released information about 
the identities of the people involved in the ``Zero Dark 
Thirty'' raid to film makers, and he had then moved over to 
become the Secretary of Defense. The then-Acting IG for DOD was 
responsible for the investigation into the allegation of that 
release of information and what happened.
    We were leaked a draft IG report that had been sitting in 
the DOD IG for over a year that identified the fact that 
Secretary Panetta as well as other senior staff had, in fact, 
released highly classified information, and that report was 
being squelched. So we released it, and within a month that 
Acting Pentagon IG released a scrubbed version of that report 
where there was no mention of Mr. Panetta. And he was, of 
course, someone who would have been helpful in Ms. Halbrooks' 
getting the permanent position had she gotten what she was 
working toward.
    Chairman Johnson. OK. Well, thank you for your work. 
Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. I apologize for 
coming and going. I am going to be doing it here again in just 
a minute.
    One of the issues that our Committee has worked on for 
years, Dr. Coburn and I and other Members of the Committee, 
deals with improper payments. And as you know well, improper 
payments add up to a lot of money. The Federal budget deficit, 
which about 6 years ago peaked at $1.4 trillion, it has come 
down; it is closer to $400 billion today, still way too much. 
But of that, about a quarter of that, $125 billion, according 
to GAO last year, was the amount of our improper payments, 
mistaken payments, accounting errors, in some cases fraud, $125 
billion. That is a quarter of our budget deficit. And we were 
marking up legislation in Finance to address that further, 
hopefully to enable us to better recover monies that have been 
improperly paid. So I apologize for having to slip out for 
that, but it was a good mission, and I think a successful one.
    I want to give my first question to you, Ms. Brain--I want 
to call you ``Brain.'' I have your name on my brain.
    Ms. Brian. Thank you for the compliment. [Laughter.]
    Mr. Carper. I was telling her earlier I have a good friend 
whose last name is Brain, Chuck Brain. So we have a good time 
with his name. I am sure we will have one with yours as well. 
But thanks for bringing your brains, all of you bringing your 
brains today and your hard work to this hearing.
    But, Ms. Brian, in your testimony, you discuss the threat 
to independence that longstanding vacancies in IG positions 
across our government can create. Just take a minute and talk 
to us about the effect, please, on the rank-and-file employees 
in those IG offices and what kind of impact it has on their 
work, just in a practical way. Thank you.
    Ms. Brian. Thank you, Senator Carper, also for your work on 
improper payments.
    Senator Carper. You bet. Labor of love.
    Ms. Brian. It is really boring but important.
    Senator Carper. Tom Coburn, if you are out there 
listening--and I know you are--I am still doing the Lord's 
work.
    Ms. Brian. Yes, I think that is a great question, because 
what you have are career staff who have given their lives to 
the mission of rooting out waste, fraud, and abuse at their 
agencies, and as I mentioned in my testimony, one staffer 
described the lack of leadership in their office as being like 
a plant that is left unwatered for years. The demise of morale 
in the office is significant. When you not only have a lack of 
leadership but a real sense that the leadership is often in 
cases of these longstanding IGs that we have spoken about that 
are in acting capacity, almost working counter to the purposes 
of the agency. So they are among the big victims of these 
vacancies. They are the people who have given decades often to 
investigations and audits, and their work is either ignored or 
slowed to a terrible pace, or in some cases as we described, 
actually just held up because it is too embarrassing for the 
agency.
    Senator Carper. Thank you.
    Does anybody else have a view on that, just very briefly? 
You do not have to, but OK, thanks.
    [No response.]
    Thank you, ma'am.
    A followup question, this would be for you Michael. I 
understand that CIGIE plays a role in helping to identify 
qualified candidates to fill IG positions. How does that 
process work? In what ways do you think it could be improved to 
help better identify qualified candidates? Do we have any role 
in that at all? Thank you.
    Mr. Horowitz. So we have set up an IG candidate panel that 
is currently chaired by the IG at the Federal Election 
Commission, and the responsibility of the panel is to speak to 
vacancies when they occur so that people within the IG 
community and outside the IG community are aware of them, 
encourage people to apply, seek to have strong candidates apply 
for those positions.
    When they get the applications, often it is not necessarily 
for a specific IG vacancy but for an IG position generally. 
They will look at it. The panel will review it. They will 
consider the various characteristics that we believe make a 
strong IG, some of which I talked about in my opening 
statement. They will then recommend those candidates that they 
have looked at, that they believe meet those qualifications, to 
the White House, and at that point, as I mentioned earlier, we 
are not further involved or consulted on those candidates. They 
go to the White House for review.
    I think one of the things that we have talked about and one 
of the things that I think we could do more of getting the word 
out beyond the IG community and beyond the Federal Government 
to State and local government agencies who have--there are a 
number of very strong oversight organizations, obviously, in 
State and local government.
    I was in the private law firm world, before coming back to 
the government, for 10 years working with corporate compliance 
officers, ethics officers. There a vast majority, as the 
Chairman mentioned earlier, of very highly qualified candidates 
in the private sector who do many of the same things we do with 
a very different structure and very different responsibilities. 
But we could be doing more to reach out to them, I think.
    Senator Carper. Good. When I was Governor, I was nominated 
by President Clinton to be on the Amtrak Board of Directors, 
and I had to go through a vetting process. I had been a naval 
flight officer (NFO) with top secret clearance, and I was a 
Governor for a number of years, and I went through a vetting 
process that was just, I thought, deplorable. It took forever, 
a lot of time, energy, and I thought, my God, just to be on the 
Amtrak Board? They should pay me to do that.
    One of the reasons why it is hard to get people who want to 
do these jobs--they are important jobs, they are hard jobs, and 
you are on the point of the spear in many cases, and some 
important issues. But the vetting process can just take 
forever. We do not treat people very well through that process 
sometimes, and we have to do better.
    I appreciate your answer and your ideas, and I would ask 
for the record if Danielle and Daniel if you all have some 
points to add to what Michael has said on that point, how do we 
get more people who are well qualified wanting to do these 
jobs, that would be helpful.
    Maybe one more, if I could, just real briefly. Mr. 
Horowitz, does CIGIE start vetting candidates--and you may have 
said this--only when there is a vacancy? Just come back to 
this. Or does CIGIE continuously vet candidates who would be 
willing to serve as an IG at any agency? I think you said that.
    Mr. Horowitz. We run the process continuously. So even if 
there were no vacancies, we would still collect applications 
because we know with 72 IGs there is going to be turnover.
    Senator Carper. OK. Last, when a Presidentially appointed 
IG steps down or is removed, there is broad awareness of the 
vacancy, and at least certain amount of public pressure to fill 
it, but I am concerned that there may be less attention and 
urgency with respect to the IGs appointed by an agency head. 
Ms. Brian, would you take a minute and tell us, can you discuss 
the different dynamics for these vacancies and whether you 
share those concerns? Thank you.
    Ms. Brian. Thank you, Senator Carper. Actually, my 
colleague has a copy of the website that POGO maintains--Where 
Are All the Watchdogs?--where we actually track both 
Presidential and agency-appointed nominees and vacancies. So we 
maintain all of them together.
    There is a whole separate question about agency IG 
appointments and whether they have the same kind of 
independence as Presidential appointments. We think it is sort 
of a nuanced question. We are not necessarily opposed to the 
fact that there are some--particularly because they are often 
boards rather than single heads of agencies that the IGs are 
responsive to. So, of course, there is--a couple of the current 
vacancies are agency appointments, but they do not tend to be 
as longstanding as the Presidential appointments.
    Senator Carper. OK. Thanks. The Chairman and I have an 
interest in--we think we have too many Senate-confirmed 
positions in the government, and that may be a view held by 
some others here as well, and we have an interest in further 
reducing the number that have to come before us, because we 
think we are oftentimes in the Senate an impediment to getting 
people who want to serve and actually into positions where they 
can serve. So if anyone is interested in maybe joining that 
cause, you are welcome to.
    Chairman Johnson. Thank you, Senator Carper.
    Senator McCaskill--I know this is a real issue dear to her 
heart. She worked very closely with me as Chairman of that 
Subcommittee that was investigating Charles Edwards. It was 
right before that hearing of our Committee that Charles Edwards 
was transferred. But she has another meeting she has to go to, 
and I am going to let her ask a quick question.
    Senator McCaskill. Thank you. Very briefly, love you, POGO. 
Thank you.
    Second, yes or no, Mr. Horowitz: Do you believe all IGs' 
salaries should be public?
    Mr. Horowitz. Yes.
    Senator McCaskill. Are they now?
    Mr. Horowitz. No.
    Senator McCaskill. And I just want to go on the record that 
I will not rest, I will not stop until we know every salary of 
every IG in our government. It is a scandal.
    Thank you, Mr. Chairman.
    Mr. Horowitz. Can I just briefly----
    Chairman Johnson. Sure.
    Mr. Horowitz. Senator, we have done the followup that you 
asked us to do at the last hearing. It is actually an 
extraordinarily--I have learned, I am sure you are aware, it is 
an extraordinarily complicated issue actually. There are, as it 
turns out, multiple pay scales for IGs across a number of 
titles within the Federal Code, including, in fact, as I 
learned, Presidential appointees have different pay levels.
    So, for example, those of us who were appointed in 2012 and 
2013 are frozen at the pay scale that was in existence then 
because of the appropriations act that did not include the 1-
percent pay raise for us, but newer IGs appointed in 2014 are 
under the current pay scale. So as I have learned, they are 
actually paid more than the IGs appointed in 2012 and 2013.
    So it has taken us some time, actually, to understand some 
of these nuances, and we----
    Senator McCaskill. Mr. Horowitz, let me interrupt you for a 
minute. I get all that. But there are IGs in this system that 
do not want their salaries public because they are making an 
obscene amount of money in a very tiny agency. They do not want 
to say what their salaries are because they know we are going 
to go crazy when we hear it, and so will the American people.
    So that is why they are recalcitrant about telling you how 
much they make. I know there are these different pay scales, 
and I want to address that. But, if those people who are making 
$300,000 a year as an IG in a tiny agency, think they are going 
to be able to hide that much longer, they are wrong.
    Mr. Horowitz. No, and, Senator, what I was getting to is 
the reason it has taken us the time to get all the material 
together as well as you asked about what kind of work folks are 
doing, we now have that together. We have reached out to your 
staff. We are going to be meeting I think in 2 weeks.
    Senator McCaskill. Great.
    Mr. Horowitz. I was just trying to give you the background 
as to why it has taken----
    Senator McCaskill. I understand. I just did not want you to 
think I lost my passion.
    Mr. Horowitz. I knew that was not the case.
    Chairman Johnson. I sense she is kind of waning a little 
bit. [Laughter.]
    Ms. Brian. I want to thank you for the love, Senator 
McCaskill.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you.
    Mr. Horowitz, thanks for being here, and for all of you as 
well, and what you are doing on this. Let me ask, has the 
Council recommended names for Interior for the IG?
    Mr. Horowitz. I do not know whether we have specifically. I 
would have to go back and ask, because it has been a couple of 
years----
    Senator Lankford. It has been years that it has been open, 
so--and I believe my question is: Is there an urgency within 
the Council to say this has been open for years, we have to 
feed them names because it is open?
    Mr. Horowitz. I am somewhat speculating here. I am guessing 
we have made recommendations for that position, but I can go 
back and check.
    Senator Lankford. I would like to know on Interior, on VA, 
on Export-Import (Ex-Im) Bank, and on CIA specifically if there 
are names that have been recommended.
    Mr. Horowitz. And my understanding on--since they occurred 
while I was Chair, VA and CIA I know the answer is yes.
    Senator Lankford. OK, but what about Ex-Im Bank?
    Mr. Horowitz. I have to go back and check on the other 
ones. Ex-Im Bank has a nominee now, so I would have to go back 
and see what happened earlier.
    Senator Lankford. OK. The Chairman brought up this issue 
about the 210 days.
    Mr. Horowitz. I am sorry. Let me correct myself. Ex-Im Bank 
does not have a nominee. I was thinking of USAID.
    Senator Lankford. At all?
    Mr. Horowitz. At all. I will go back and check.
    Senator Lankford. That is what I had heard as well, and 
obviously Ex-Im Bank is in the spotlight right now, and there 
have been multiple issues that have happened around it.
    My question is on the 210-day limit before the Acting has 
no relevance and all the law and all the issues that are there. 
I get that. What incentives can be built into--this builds on 
what the Chairman was saying--to provide incentives that we 
have someone at least nominated before that time period? There 
has to be some sort of incentive that can be built in and some 
ideas that are out there so that we do not have Acting for 2, 3 
years or to have really a Deputy to take this one.
    Ms. Brian. Well, Senator Lankford, the issue is complicated 
in that it is a Presidential appointment, and there is sort of 
the separation of powers issue.
    Senator Lankford. Right.
    Ms. Brian. So I would encourage the Congress to remember 
that you are the holders of the purse strings and you have 
other ways of making the Executive Branch pay attention. You 
cannot force the Executive Branch perhaps to make an 
appointment, but you can get their attention by not doing 
things they would like you to do until they do make those 
appointments.
    Senator Lankford. OK. So let me ask a question that is a 
purely speculative question. Why would there not be a 
nomination for an Inspector General in an agency? We have 
competent people that are being suggested. We have lots of 
Americans that are willing to be able to serve. Why would there 
not be a nomination for an Inspector General?
    Ms. Brian. Well, as you said, it is clearly a speculative 
answer, but there is no doubt that Inspectors General who do 
their job well are often bringing bad news to the fore, and 
they are often not popular with their agency or the Executive 
Branch because they are often the bearers of bad news, and so 
that is an obvious disincentive to----
    Senator Lankford. I am not sure they are the bearer of bad 
news. They are just the bearer of news, period, of what is 
going on. So my assumption is for the IG their job is not to go 
find bad news. It is just to find any news, what is happening 
right, what is happening wrong. It is a transparency piece on 
it, and my question is: Why would we not want to have 
transparency in certain agencies?
    Ms. Brian. Well, there is no question that what you are 
saying is correct. You are asking what would be the incentive 
not to appoint one----
    Senator Lankford. Correct.
    Ms. Brian [continuing]. And that was why I answered----
    Senator Lankford. Because they can also bring bad news.
    Ms. Brian. Correct.
    Senator Lankford. Correct.
    Mr. Epstein, were you going to say something on that as 
well?
    Mr. Epstein. Yes, I mean, I would say, No. 1, it is clear 
that President Obama has nominated IGs as early as 2009, and he 
has nominated IGs as recently as this year, and I think that if 
you just look at the incentives of the President, it is not 
just a question of news at all. It is also if there are issues 
at the agencies, appointing an IG who is effective and 
permanent is going to reveal findings and ultimately if the 
President, especially as this Committee knows, you have someone 
like Charles Edwards who himself as the Acting IG was engaged 
in misconduct, that could make the nominating President look 
bad. And so I think there might be political reasons.
    I also think that when we look at the question of how do 
you hold certain IGs accountable, there is--as my organization 
was told by the previous Chairwoman of CIGIE, CIGIE told us in 
a letter that it has no allocations or resources to conduct 
audits, investigations, or evaluations. Apparently--and I think 
IG Horowitz could probably talk more about this--at least for 
the Integrity Committee of CIGIE, that is all done by the 
Federal Bureau of Investigations (FBI). And so, if you look at 
the case of Charles Edwards, there was not a report by CIGIE 
until after he had already resigned. If you look at Charles 
Edwards' own investigations, the Mayorkas issue with the U.S. 
Citizenship and Immigration Services (USCIS), the Cartagena 
issues with Secret Service members, these were all 
investigations that went on for a number of years, and I think 
what you see as a problem with Acting IGs is, as Ms. Brian has 
indicated, they want to curry favor with the President, they 
want to curry favor with the agency heads, and so they have an 
incentive not just to avoid investigations but to delay 
investigations.
    Senator Lankford. Mr. Horowitz, for the Inspectors General, 
when they are going to do a long-term look of a real 
investigation, whether they have a tip, whether they have 
inside information, whatever it may be, who chooses what 
investigations they take on and what they choose to report on? 
Who makes that decision?
    Mr. Horowitz. Well, in my office it would be me consulting 
with the leaders of my divisions based on their 
recommendations.
    Senator Lankford. So how is that different for an Acting 
IG?
    Mr. Horowitz. That would still occur in terms of a process, 
I think, for----
    Senator Lankford. But how long does a report take? If you 
are going to do a more lengthy investigation--I know it varies 
from place to place, but how long does that take?
    Mr. Horowitz. They can take 6 months to more than a year, 
depending upon the complexity of it. Our Fast and Furious 
report, for example, took 18 months.
    Senator Lankford. Have you got all the documents you need 
for that yet, by the way?
    Mr. Horowitz. For that one we do at this point. For others 
we do not. And I appreciate your support on that issue.
    Senator Lankford. There is still plenty to do on that as 
well. My question is then with an Acting IG, if they do not 
know how long they are going to be there, do they take on the 
larger reports that are more lengthy? Or do they typically skip 
those?
    Mr. Horowitz. Well, I think that is the challenge for an 
Acting IG, whether they are seeking the job or not, is the 
unknown of how long is that position going to be vacant. The 
longer it goes, the more decisions they have to make. You 
cannot delay decisions indefinitely. And that is precisely the 
challenge, Senator, what you have outlined, which is, Do we 
undertake a long-term review that could impact resources, that 
might be inconsistent with what the permanent IG will want to 
do?
    Senator Lankford. OK. Thank you. I yield back.
    Chairman Johnson. Thank you, Senator Lankford. Senator 
Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I really want to 
thank you for holding this very important hearing. Thank you to 
the witnesses for sharing your very valuable insight on this.
    As the Chairman mentioned in his opening comments, we have 
had a real opportunity to see in Tomah, Wisconsin, the role of 
the Department of Veterans Affairs Office of Inspector General 
and how critical it is in auditing and evaluating VA programs, 
conducting health care inspections, reviewing medical center 
operations, and investigating allegations of serious violations 
of policies and procedures by high-ranking members of the 
Department. The failings of the VA and the VA Office of 
Inspector General in Tomah come against the backdrop of a year 
of incredibly challenging problems for the VA. While I 
personally believe that the overwhelming majority of VA and VA 
OIG employees strive every day to deliver for our veterans, 
they need stable leadership. That is why I have called on the 
President to nominate a permanent Inspector General for the VA.
    I would also point out that not only do the IGs provide 
information to the agencies and the President, they also 
provide incredibly important information when Congress needs to 
exercise greater oversight or pass further legislation. And if 
this information is not fully transparent, if it is not fully 
accessible, if it not fully objective, it impacts our ability 
to do our jobs.
    This Committee has done some important work in advancing an 
IG reform bill, and I was pleased to co-author provisions in 
the bill with Senator Johnson that refer specifically to what 
we were seeing in Tomah.
    I just have a few questions, and, frankly, they are mostly 
to dig deeper into questions you have already been asked to 
specify information that I would like to receive either today 
or in followup.
    First, following up on some of the Chairman's questions of 
you, Mr. Horowitz, I want to get a greater sense of how often 
appointing authorities act on your recommendations versus 
alternative routes. There are other ways that potential 
nominees can come to the attention of appointing authorities, 
including the President of the United States. And so I would 
like to know, on a more granular level, how often the President 
acts on recommendations made by the panel, and also if you ever 
receive feedback from the appointing authority on the 
recommendations and the individuals that you send. I know you 
said earlier that you do not have those numbers with you, so I 
would certainly take them in followup to this hearing.
    Mr. Horowitz. Absolutely, and I will do that.
    And on the feedback issue, my understanding is we generally 
do not get feedback. It is simply a one-way passing of 
information generally, here are the recommended candidates, not 
an explanation back as to why some were not picked, for 
example.
    Senator Baldwin. All right. Also in follow-up to a previous 
question, can you share the number of candidates for the VA 
Inspector General vacancy that have been forwarded from the 
Council to the Office of Presidential Personnel?
    Mr. Horowitz. I will follow up on that.
    Senator Baldwin. Do you have that with you today?
    Mr. Horowitz. I do not know off the top of my head. I know 
there are some. I just do not know the number specifically.
    Senator Baldwin. OK. And, if you would, I would be 
interested to know when those resumes and names were forwarded.
    Mr. Horowitz. I will follow up.
    Senator Baldwin. I would like to know how long that 
information and those ideas have been before the President.
    Mr. Horowitz. And, of course, as I mentioned, Senator, 
there will be individuals recommended generally for IG 
positions that will have been there when that vacancy occurred 
January 1, 2014. So in our view, those are individuals we send 
to have strong experience and abilities across the board and 
can fill positions generally. So there will be both candidates 
we would say would be available generally, and then I will 
followup on specific candidates.
    Senator Baldwin. Each of you in your testimony gave some 
considerable thought to why Acting IGs are perhaps seen as less 
credible in the eyes of agency leaders, Members of Congress, 
and the public, as well as why they might lack sufficient 
independence. I heard Ms. Brian elaborate on that a little bit, 
and I wonder, Mr. Horowitz, if you could elaborate a little bit 
more on your concerns of having Acting Directors of long 
duration.
    Mr. Horowitz. Well, I think there are several issues that 
come with that. One we have talked about briefly, which is 
decisions that have to be made about long-term hiring, long-
term policies, long-term practices. Those are difficult 
decisions for an acting head of any agency. I was in a U.S. 
Attorney's Office, I was in the Criminal Division when 
transitions occurred between Administrations. Those were 
difficult times for even the acting heads of those 
organizations to make those kinds of decisions.
    And with regard to Inspectors General, these are obviously 
very challenging, difficult jobs for a variety of reasons, and 
there is an enormous amount of protection and from the statute, 
the IG Act, that goes to Inspectors General with regard to 
removal. That does not apply to anybody else. Everybody else is 
a career employee in the organization that is under career 
civil service laws. But for me, in a Presidentially confirmed 
position, there is only one person in the entire government who 
can act and remove me, and that is the President of the United 
States. And that provides a significant amount of protection 
and independence and for me to exercise that independence.
    Senator Baldwin. Thank you.
    Chairman Johnson. Thanks, Senator Baldwin. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. I do appreciate you 
holding this hearing. This has been an issue ongoing for, I 
think, quite a while now, and before I do get to my questions, 
I just would like to make a few remarks as to this issue. This 
is very important to me, and particularly with the avenue that 
I am going to take, particularly to our veterans.
    I have been concerned our veterans are not receiving the 
highest quality of mental health care at many VA facilities, 
and tragically, in February, Iraq and Army veteran Richard 
Miles of Des Moines, Iowa, committed suicide. And I was deeply 
troubled by reports from his family, from his friends, and both 
local and national media outlets which claimed that Richard may 
not have received adequate mental health care from the 
Department of Veterans Affairs.
    That led me to ask the Inspector General to look into 
Central Iowa VA's mental health care programs, the care that 
Richard received for his post-traumatic stress disorder (PTSD), 
and their management of his particular case. That was in 
February. It is now June. And this has been so deeply troubling 
to me.
    I would note that the Office of the VA IG has told me on 
multiple occasions that they would get the report to me. Again, 
I requested this report in February. It is now June. They told 
me they would have the results to me first in April, and after 
receiving no response, we reached out again, and then they 
said, ``We will have it to you in May.'' We reached out again 
at the beginning of this week, still have not received an 
answer.
    So it is very frustrating and absolutely unacceptable that 
it has taken so long. We have many veterans that seek 
assistance with our VA systems, whether it is for mental health 
care or other types of care. Especially with our mental health 
care, we need to ensure that they are receiving timely and 
adequate care, and in this case I have no idea whether that 
happened or not because we have not gotten a response.
    So as a Senator, I do have the responsibility to ensure 
that those veterans are receiving adequate care and that we are 
living up to the promises that we have made to these veterans 
as a Nation.
    So the VA and its IG need to come forward with information 
that will provide Iowa veterans a better understanding of the 
adequacy and management of their mental health care and those 
programs.
    So while I am in a position right now that I can no longer 
do anything for Richard, I am in a position where I can do 
something for many of our other veterans that are seeking 
mental health care to help with these invisible wounds. And 
this could be of any era of veteran. But the only way that we 
can do this is to ensure that we have efficient and motivated 
IGs, and especially one in the VA that can be held accountable.
    Thank you for listening to that, but with that, I would 
also like to ask a couple of questions.
    Mr. Horowitz, you wrote in your testimony that one of the 
Council of IGs' most important responsibilities is to submit 
recommendations of individuals to the appropriate appointing 
authority. Would you recommend Mr. Griffin to be the IG for the 
VA? Have you had any discussions with the White House on a 
formal nomination process for the VA IG spot?
    Mr. Horowitz. I have had conversations, and my 
understanding is the Chair of the panel and the panel itself 
that we have set up has also had discussions in the sense of 
recommending candidates for the position. When I say 
``discussions,'' again, they are usually one-way discussions. 
It is us recommending candidates to them.
    Senator Ernst. And have you seen any responses, 
particularly with Mr. Griffin? Is he a candidate for the 
position?
    Mr. Horowitz. I do not know if he is a candidate, and I 
have not gotten feedback on where things are as to the 
candidates we have recommended.
    Senator Ernst. OK. And therein lies some of the problems, I 
think, that maybe recommendations are made, but they are not 
acted on. That I am not sure of. I just know that the VA does 
need an IG and somebody that will be responsive to these types 
of situations.
    Also, Mr. Horowitz, and, of course, Ms. Brian and Mr. 
Epstein, last year former White House Deputy Chief of Staff and 
now the VA Chief of Staff, Rob Nabors, said that the VA was 
crippled by a corrosive culture and poor leadership, which 
negatively impacts the delivery of care at VA. And considering 
this White House report, VA scandals with systemic wait time 
falsification--we could go on and on. And it is on the GAO's 
high-risk list. In your opinion, why hasn't the White House 
prioritized nominating and getting through the Senate a full-
time IG? Are there areas we need to consider?
    Ms. Brian. I just cannot speak to why they have not 
prioritized it. It seems so obvious to me that it should be a 
priority. And in my written testimony I gave some examples of 
how we have had our own experiences, a very negative experience 
with the Acting IG. So I would hope that they find someone else 
to fill the position.
    Senator Ernst. Thank you.
    Mr. Epstein. I cannot speak specifically about the 
President's state of mind, but I think there are two things 
that might shed some light on some of those questions you 
asked. The first is--and I would be happy to kind of submit an 
additional statement on this. The President, I believe, under 
the Vacancies Act, could--he has done so with the National 
Labor Relations Board (NLRB). He could put an IG into a 
position which would not have to be past that 210-day timeline 
and then would not have to be a Deputy. So I think the 
President has--is ready, willing, and able--maybe not willing 
but has the ability to put someone there. And so it is a 
question of the pressure to do that. Why do you do that for 
certain boards that may be politically beneficial, but you do 
not do that when it comes to Inspectors General.
    I think the other thing is a lot of what has been discussed 
is the fact that there may be delays in appointments through 
that vetting process. But as part of that vetting process, 
whether it is the Office of Presidential Personnel or the 
President's Counsel, they get background checks on nominees 
from the FBI. So one thing that if my organization tried to do 
this, we would be stonewalled, but hopefully the Senate would 
not be, is the Senate could request information, whether the 
records are kept confidential, but the number of records are 
not, of how many background checks were done for potential 
nominees to the Department of Veterans Affairs, how many 
background checks were done for potential nominees to the 
Export-Import Bank. Then you can determine how, in fact, 
willing was the President to consider nominations. If you 
cannot get the facts from CIGIE, you can get information 
concerning how many potential nominees were actually 
considered, and that could give some kind of sunlight to 
whether the President took seriously the need to actually put a 
permanent Inspector General to prevent a lot of these problems 
that you discussed at Veterans Affairs.
    Senator Ernst. Thank you, and thank you, Mr. Chairman. And 
I would say that of all of the IG positions that are vacant, 
this one literally has lives riding on it.
    Chairman Johnson. I totally agree. I made that same point. 
Obviously, one of the purposes of this hearing is to put that 
pressure on the White House to get somebody appointed, or 
certainly nominated, and hopefully the Senate would quickly 
confirm that individual. So hopefully the outcome of this 
hearing will be that nomination. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank 
Senator Ernst for her questions, and I just have to say this is 
dumbfounding. President, if you are listening, the fact that 
since December 2013 we have not had a permanent Inspector 
General in the VA, I mean, I cannot tell you--what happened in 
Iowa, what happened in Arizona, what happened in Wisconsin, 
what is happening in New Hampshire, we spent a lot of time on 
the floor last summer trying to come up with a reform bill, and 
now we are trying to hold the VA accountable to actually give 
veterans choice with private care. In my State, we just had a 
huge forum the other day on problems that we are having in even 
having the VA implement this law. And the President of the 
United States has not nominated since December 2013 a permanent 
Inspector General. To me this is something that I would think 
every American, Democrat, Republican, Independent, would care 
about. And of all the priorities that the President could have, 
I mean, Mr. Epstein, you mentioned it. He used the Vacancies 
Act to fill the NLRB. Well, we are talking about veterans who 
are suffering, veterans who have died, and I think there is--
whatever we can do, Mr. Chairman.
    But, Mr. President, if you care about our veterans--Mr. 
Horowitz, CIGIE has submitted a proposal of someone, as I 
understand. It is not on your end.
    Mr. Horowitz. That is correct.
    Senator Ayotte. CIGIE has submitted recommendations of an 
individual or individuals who could serve in this position. 
Correct?
    Mr. Horowitz. That is correct.
    Senator Ayotte. So it is in the President's lap right now, 
and it seems like our veterans deserve action on this 
immediately by the President of the United States. And I did 
not come here today to make this speech, but in listening to 
all this, I just cannot believe it, that this would be vacant 
since December 2013, of all the things that we are trying to 
get right for those who have done so much for our Nation.
    So that said, I was very interested, Ms. Brian, in terms of 
you said you have had some serious concerns with the current 
Acting right now at VA. Could you help us with what those are?
    Ms. Brian. Sure. Well, in addition to your own Committee 
having had your direct engagement and concerns with--and also 
the House having concerns about the operations of that shop, we 
shared all of the Senators' concerns when news of the failings 
of the Veterans Affairs Department was coming forward, and we 
at POGO thought, ``What can we do to sort of help shed light on 
how could this be sort of systemically a problem across the 
agency?''
    And so we worked with Iraq and Afghanistan Veterans of 
America and launched a website that said if you work inside the 
VA, could you let us know what is your sense of what is 
happening so we could have a better understanding of what could 
be done to fix the agency. And, incredibly, we had 800 people 
come forward. I mean, it was an astounding number of people, 
and I think it is important to recognize in this case, this 
shows how many people there are who work inside the system, who 
care deeply about the mission of the VA, who were taking risk 
by coming forward and saying, ``I am a doctor at this 
facility,'' ``I am a tech at this facility,'' ``This is what I 
am seeing.'' They came forward to give us a sense so that we 
could help them do something about it.
    Within weeks, we were contacted by the VA IG who asked us 
for the names of the people who had come to us, and we said, 
``Well, of course, we are not going to give you the names of 
the people who are coming to us, but we are very happy to work 
with you to give you a sense of what we are learning.'' We were 
then immediately met at the door with a subpoena from the 
Acting VA IG demanding the identities of the whistleblowers who 
were coming forward to try to help fix their agency.
    So POGO remains unwilling to abide by that subpoena, but 
for us it was indicative of the flawed priorities of that 
office, that it was more important to them to sort of identify 
who the whistleblowers are than it was to encourage anyone to 
help try to figure out what the problems are.
    Senator Ayotte. Well, let me just commend POGO for refusing 
to comply with that subpoena, because when people come forward 
as whistleblowers, the notion that the VA would be more focused 
on identifying the whistleblowers versus the underlying 
problems I think just demonstrates Exhibit A of what we are 
dealing with and why it is so critical that we actually get a 
permanent IG with this agency. And you think about all the 
things that we do, our veterans, they have served our country, 
they have put their lives on the line, they have done so much, 
and you would think that that would be the one area we would 
prioritize. It is not a partisan issue.
    I wanted to followup, Mr. Horowitz, in terms of this idea--
and I heard from listening to Mr. Epstein and Ms. Brian, this 
idea of a conflict, it sounds, when we have an Acting IG. It 
seems like they are put in the situation where the Acting IG 
has to curry favor with the agency head, or there is a 
potential that that could happen, and that creates these 
challenges that obviously undermine what the purposes of what 
CIGIE and the IGs are trying to accomplish.
    Can you comment on that? And, also, in your role, do you 
feel you have sufficient authority to have oversight over these 
Acting IGs to be able to take proper action if you think that 
one of them is not performing the way that you believe they 
should?
    Mr. Horowitz. So with regard to the first question, 
Senator, I think one of the challenges for any Acting IG, no 
matter how good they are, is that perception that they are the 
acting individual. They do not come with all the protections 
that I do as a confirmed IG with the IG Act's independence that 
comes with it, and that is a challenge, I think, for an Acting 
IG no matter how strong they are.
    As I said before, I had somebody serving as an Acting for 
15 months before I arrived. She did an outstanding job. But 
that is always going to be the perception, both within the 
organization and external to the organization, because nobody 
knows: Are they getting the job? If they are not interested in 
the job, when is the person who is getting the job coming in? 
All that uncertainty that is there exists.
    With regard to the second issue, CIGIE by statute--I do not 
have authority over the other IGs--or Acting IGs, for that 
matter. They have independence----
    Senator Ayotte. So who is the watchdog on that?
    Mr. Horowitz. Well, if there are allegations of wrongdoing, 
that would go to the Integrity Committee, which is chaired by 
the FBI, and we have had discussions with the Committee, this 
Committee and on the House side, about concerns that have 
existed with regard to the Integrity Committee. But they would 
be the ones that would get any referrals of complaints about 
misconduct-related issues over Acting IGs. The Chair of CIGIE 
is not empowered to do anything with----
    Senator Ayotte. Ms. Brian, I know you wanted to comment.
    Ms. Brian. I just wanted to add to Mr. Horowitz, but, of 
course, the Congress is also the watchdog, and the Congress has 
often done a terrific job at playing that role of doing--the 
staff doing great investigations into problems with the IG 
office.
    Senator Ayotte. So I know that my time is up, but last 
Congress, we were so worried, myself, Senator Boozman, and 
Senator Shaheen, we actually introduced a piece of legislation 
that if the positions were not filled within 210 days, the 
vacancy under the law, that the authority to fill would then be 
transferred to Congress, and that would eliminate this sort of 
idea that maybe the Executive Branch has a disincentive to have 
real rigorous oversight. And I think that is something that we 
should revisit and consider looking at some other model to make 
sure that we actually get these things filled and also that we 
think about this idea of a potential conflict. So I thank all 
of you for being here.
    Chairman Johnson. Thank you, Senator Ayotte, for your 
passion on this issue. I think you missed my opening comments 
about the Tomah VA and the daughter of Thomas Baer, who told me 
over the phone that if she had only known--in other words, if 
the Office of Inspector General had only issued a report so the 
public understood the problems of the Tomah VA, she never would 
have taken her father where he basically died of neglect in 
that facility. So these are issues of life and death, and thank 
you for your passion on this.
    Mr. Horowitz, we obviously have, this Committee, I have had 
some real problems with the VA Acting Inspector General, Mr. 
Griffin. Because of the Tomah VA situation, we have been trying 
to get information, trying to get the case file. It was 
revealed in a news report that there are 140 different 
inspections and investigations where reports have been issued 
that have not been made public. We could not get the case file. 
We could not get the communications, even though we worked with 
the Office of Inspector General for a number of months. We 
finally had to take the extraordinary step of issuing a 
subpoena.
    Now, we have the power to issue that subpoena. I wish we 
have not had to do that. We issued that subpoena on April 29, 
looking for a response by May 13. We have received some 
response, but not complete responsiveness.
    I want to just ask you, because I am actually kind of 
shocked that the Office of Inspector General subpoenaed the 
offices of POGO. Do Offices of Inspectors General have that 
power to subpoena a group like POGO?
    Mr. Horowitz. Under the IG Act, Inspectors General have 
authority to issue documentary subpoenas to outside 
organizations. I do not know the facts of----
    Chairman Johnson. Do you think that is an appropriate 
subpoena to that group, looking to find out who the 
whistleblowers are?
    Mr. Horowitz. I would not in my position consider issuing a 
subpoena to any organization to look for information about 
whistleblowers.
    Chairman Johnson. Has CIGIE opened up an investigation in 
the Integrity Committee against this Office of Inspector 
General?
    Mr. Horowitz. I would have to reach out to the Integrity 
Committee, because that is chaired by the FBI by statute. It is 
not----
    Chairman Johnson. I would ask that you check into that for 
me. Mr. Epstein.
    Mr. Epstein. Yes, I would actually respectfully disagree 
with IG Horowitz. I actually do not think the VA OIG under the 
Inspector General Act has any authority to subpoena any outside 
entity that has no purpose that deals with Federal program 
administration. Subpoenaing an organization that is out there 
protecting whistleblowers and conducting oversight over the 
Federal Government has nothing to do with a programmatic 
function. It is clearly ultra vires under the Inspector General 
Act.
    Chairman Johnson. From my standpoint, I think one of the 
primary roles of the Offices of Inspectors General is to 
investigate cases where the agencies and departments are 
retaliating against whistleblowers. I mean, whistleblowers are 
really kind of--shining the sunlight that whistleblowers bring 
to Congress and bring to the public, it is about the only way 
we can reform and improve the efficiency and effectiveness of 
government. And so we offer those whistleblower protections so 
that we encourage those people to come forward.
    When the Office of Inspector General--and that is, of 
course, what happened with Charles Edwards. I think that is 
probably the most egregious problem with the Inspector General 
Charles Edwards. He was retaliating against people that were 
issuing reports that he did not like.
    So, Ms. Brian, you talked about in your testimony that 
Richard Griffin, his office had undermined whistleblowers. Can 
you describe that a little bit more?
    Ms. Brian. Well, as soon as the subpoena occurred, we felt 
it was our responsibility to alert people who were contacting 
us that such an inquiry had taken place and that we certainly 
intended not to comply with it. But as you can imagine--and 
there was some wonderful support from former Senator Coburn 
also who wrote to them demanding an explanation of why they 
were doing this.
    But the bottom line was it creates a chilling effect 
because now you have people who thought, OK, well, this is a 
safe place to go, and we are doing everything that we can to 
protect their identity, but to think that there is an office 
that has the capacity--whether they do or not, they were trying 
to exercise the capacity to identify who the people were who 
were coming to us. It had a terrible chilling effect.
    Chairman Johnson. And, again, was that the only purpose of 
that subpoena? Is there any other justification for the 
subpoena you received from the Office of Inspector General for 
Veterans Affairs?
    Ms. Brian. You would have to ask them, but I think the fact 
that we said we are very happy to work with them to identify 
what information we were getting without revealing identifying 
details of who the people were, and they were not interested in 
any conversations of that kind.
    Chairman Johnson. Can anybody, any of the three witnesses, 
speak to other instances of this type of retaliation against 
whistleblowers or retaliation within the Offices of Inspectors 
General? We obviously saw it with Charles Edwards. We are 
seeing it here, I think, with the Office of Inspector General 
at the VA. Are there other instances of this? Is this 
widespread, or is this really an anomaly?
    Ms. Brian. Well, Senator, as I mentioned in my oral 
testimony, there is currently a case involving--and this is 
actually a confirmed IG at the Commerce Department, who has 
been found through House investigations to have retaliated 
against whistleblowers. And as it turned out, it has only 
recently become clear that Todd Zinser had withheld evidence 
that, in fact, he had been found to have retaliated previously 
against whistleblowers from the confirmation process. And so we 
have sort of a current case where you have someone who is a 
sitting IG where that has taken place, and that actually----
    Chairman Johnson. Is he still in that position?
    Ms. Brian. Yes, he is. And we have asked the President to 
remove him. So that is something that I think is also worth 
noting. When you mentioned earlier--of course, we all feel a 
great urgency in filling the vacancy, for example, at the VA 
IG, but once there is a nominee, I really would encourage the 
Congress, and the Senate in particular, to take the role of 
confirmation very seriously. That is part of why you need to 
not have such a lengthy process before the nomination, because 
you need to give the Congress time to do a thorough vetting as 
well.
    Chairman Johnson. Well, this Committee is dedicated to 
that.
    Mr. Epstein, I do not want the moment to pass, because I 
know you have done an awful lot of work with the State 
Department's Office of Inspector General in terms of how they 
may or may not have responded to the revelation that Secretary 
Clinton was storing probably official e-mails on a private 
server. Can you just give us your thoughts in terms of how a 
permanent Inspector General should have responded to knowledge 
that Secretary Clinton was, I believe, violating State 
Department protocols and policies?
    Mr. Epstein. Well, Senator, we know for a fact, based off 
NARA's response to the same inquiry we sent to the OIG, that 
the OIG has records in its possession concerning whether 
Hillary Clinton was complying with the Federal Records Act. And 
I think in this case, Harold Geisel, you know, from a lot of 
work that has been made public by others, was viewed even by 
GAO as having a conflict of interest. So I think what a 
permanent IG would have done is avoided that conflict of 
interest that we have all discussed and actually been able to 
get that information public in a report.
    We know that Mr. Linick, who is now the IG, has been very 
active in doing thorough reports about e-mail record 
preservation at the State Department, and that is something 
that had he been in place earlier, we may have had a lot of 
these problems avoided.
    Chairman Johnson. Are you aware whether Mr. Geisel was 
aware of Secretary Clinton's violation of the policies?
    Mr. Epstein. From the records that my organization has 
received, we know that there is a substantial likelihood that 
at the time he was the Acting IG at the State Department, there 
were records or communications in his possession that were 
shared with the National Archives concerning Hillary Clinton's 
record preservation, but I can only speculate as to whether he 
was directly involved or whether it was others in his office.
    Chairman Johnson. OK. But, again, you do not have the 
documented evidence of that. All you know is that there were 
some documents or a document that was responsive to a FOIA 
request that you simply cannot get hold of?
    Mr. Epstein. Yes, the National Archives has said that those 
records are subject to deliberative process.
    Chairman Johnson. OK. Thank you.
    Senator Carper--oh, go ahead.
    Ms. Brian. Mr. Chairman, I am sorry. I realized there is 
another example that I made a quick reference to in my oral 
testimony of a current retaliation case. Yesterday it was 
reported by McClatchy newspapers that a Federal judge is 
investigating allegations that the then-Acting IG of the 
Department of Defense destroyed documents during the high-
profile leak investigation of NSA whistleblower Thomas Drake. 
We have seen the letter to the Federal judge, and the Federal 
magistrate has sent to the Public Integrity Section of the 
Justice Department, requesting that they look into this matter. 
And the two people who were referred, one was the then-Acting 
Inspector General Lynne Halbrooks, who has just retired, but 
also the current General Counsel of the DOD IG, Henry Shelley.
    Chairman Johnson. Well, thank you for that. Mr. Horowitz, I 
think your Integrity Section is going to be somewhat busy here. 
Senator Carper.
    Senator Carper. I want to turn away from Hillary Clinton 
for a moment and get back on track here just a little bit. The 
situation we have here is we still have too many IG vacancies. 
I am troubled by the fact that there has not been a Senate-
confirmed IG at Interior for over 5 years and concerned why 
there has not been a Senate-confirmed IG at the Veterans 
Administration for more than a year. And I have been worked 
hard, along with my colleagues here, to make sure that that is 
brought to the attention of the administration, including the 
very top of the administration, so we can get some action. And 
we are seeing some action, and we need to see some more. So I 
hope that will remain the focus of what we are about here 
today. We are wasting too much money in this government. Any 
big organization wastes money. And we do not have it to spare, 
so we need to redouble our efforts.
    I have maybe one question for Mr. Horowitz and then another 
one, if I can, for Ms. Brian. They are short questions. 
Hopefully, short answers.
    Mr. Horowitz, as you have talked with some of the highly 
qualified candidates who have been considering going through 
this process to fill a vacancy, has the difficulty of 
navigating the process and the length of time it takes impacted 
their decisions to put themselves forward as a candidate?
    Mr. Horowitz. It has certainly made them ask themselves the 
question about the process, and, frankly, I had that situation 
myself, having spent a year going through this process and at a 
time when I was at a law firm and people wondering, am I 
leaving, am I staying. Fortunately, I live and lived in the 
D.C. area, so I did not also have the problem of wondering what 
was I going to do with my family, were they going to have to 
move, were we going to move in the middle of a school year, et 
cetera. Those are very difficult issues for any nominee to have 
to sit and wait and wonder.
    Senator Carper. I remember turning to my wife, when I was 
trying to--I mentioned earlier I had been nominated by 
President Clinton to serve on the Amtrak Board, and I had to go 
through all this vetting, which I just thought was crazy. And I 
remember turning to my wife at some point in time and saying, 
``There is no way I am going to finish doing this. This is just 
way too much.'' And she calmed me down, and so I ended up 
serving, and I am glad that I did. But, boy, what a pain.
    Ms. Brian, a question for you. I know you know many of the 
potential candidates for becoming Inspectors General. Do you 
think the way the process works or does not work is a barrier 
for some who we would be lucky to have as IGs in our agencies?
    Ms. Brian. I certainly do think that the current process is 
a barrier, and by that, what I mean is that it is sort of a 
black hole, and I think more transparency, at least for those 
who have been nominated or think they might be nominated, would 
be very helpful to encouraging people to serve.
    Senator Carper. All right. Thanks.
    The other thing I want to say in closing, I finished my 
active duty tour in the Navy in the middle of 1973, moved to 
Delaware to get an MBA from the University of Delaware. The 
first week I was at Delaware, September 1973, I got in my 
Volkswagen Karmann Ghia with a rebuilt engine, and I drove up 
the Kirkwood Highway from the University of Delaware to the VA 
hospital. I had in hand my DD-214, which indicated I was 
eligible for certain benefits. And I got to the hospital, it 
turned out I was eligible for some dental benefits, and I met a 
young dentist who was going to examine me and figure out what, 
if any, work needed to be done. I will never forget what he 
said to me then. He was just out of dental school, and I think 
he was there for a short tour before he actually went off to 
practice on his own. And he said, ``Mr. Carper, you need to 
know this.'' He said, ``This is not a very good hospital. They 
do not do very good work here. The morale is not good.'' It 
turn out they had 16-bed wards, had a pharmacy that was messed 
up. They did not do outpatient surgery, and they had a bad 
reputation. And he said it was well deserved.
    That was the fall of 1973. I was elected State treasurer 3 
years later, to Congress 6 years after that, and I have spent 
since 1983 trying to make sure that the quality of care at that 
hospital and the two outpatient clinics in central and southern 
Delaware provide exceptional care for our veterans. I am very 
proud of the work that they do. Can they do better? Sure. We 
can all do better. And they are under the gun to do better, and 
I expect them to, and they expect to.
    As it turned out, if you go back 6 years ago, across the 
country we had reports of as many as 100,000 people dying in 
hospitals because of mistakes--not VA hospitals, not VA 
outpatient clinics, but hospitals writ large across the 
country. And somebody said, ``We have to do something about 
that.'' And we have been doing something about that in this 
country. And whether someone is dying in a VA hospital in 
Delaware or your States or Wisconsin or any other place, one 
death is too many, especially if it is a death caused by a 
mistake or inappropriate attention or care. And we have to bear 
down on them and continue to.
    But this has been a problem, writ large, for health care 
delivery in this country for some time, and we are doing 
better, writ large, across the country. And, clearly, we have 
room for improvement in the VA system, and I am committed--I 
know our Chairman is and certainly Senator Baldwin--to make 
sure that we do that across the country.
    To the extent we can do better by our veterans through a 
better watchdog at VA, I want to make sure that we do that, and 
I am committed to making sure that we fill that position soon.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I want to thank all the witnesses. You took a lot of time 
and prepared some very thoughtful testimony. We appreciate your 
answers to our questions.
    I think in terms of the two purposes of this hearing, we 
have certainly fulfilled the first. I think we certainly 
understand how important these positions of permanent Inspector 
General are. These people have to have integrity. They need to 
be totally accountable and completely transparent. That is 
absolutely necessary.
    Unfortunately, we really did not find out why these 
vacancies have gone on so long. We will continue to work with 
the White House to try and determine and get that answer. We 
will continue to work with the White House and apply pressure 
on them to get these appointments made, particularly with the 
VA. And, Mr. Horowitz, I really count on you working with the 
CIGIE to take a look at the Integrity Section here and 
investigate some of these issues that have been raised during 
this hearing. And this Committee also will--we are dedicated to 
move quickly on the nomination of Ms. Ochoa for the Inspector 
General for the GSA.
    With that, let me just say the hearing record will remain 
open for another 15 days until June 18 at 5 p.m. for the 
submission of statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
